No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
ADRIAN D. RILEY,
Petitioner,
vs.
JOSEPH NOETH, SUPERINTENDENT, ATTICA CORRECTIONAL FACILITY,
Respondent.
PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear or declare that on this date, September 2 , 2020,
as required by Supreme Court Rule 29 and pursuant to the Order of the Supreme
Court of the United States, dated April 15, 2020 (589 U.S.), I personally have served
via email the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, at the email addresses below stated, which are those that have been
designated by said attorneys for that purpose.
The names and addresses of those served are as follows:
New York State Office
of the Attorney General
By: Michelle E. Maerov
28 Liberty Street, 14th Floor
New York, New York 10005
(212) 416-6242
Michelle.Maerov@ag.ny.gov
That on the same date as above, I sent to this Court one copy of the within Motion
for Leave to Proceed In Forma Pauperis and Petition for a Writ of Certiorari via
Federal Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me this
September 2, 2020

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

38378

